     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General


                                                                         Office of Audit Services, Region I
                                                                         John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203

Report Number: A-01-11-01500

Ms. Jill M. Mortali
Director of Sponsored Projects
Dartmouth College
11 Rope Ferry Road, #6210
Hanover, NH 03755-1404

Dear Ms. Mortali:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Administrative and Clerical Costs at Dartmouth
College for Fiscal Years 2009 Through 2010.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact George Nedder, Audit Manager, at (617) 565-3463 or through email at
George.Nedder@oig.hhs.gov. Please refer to report number A-01-11-01500 in all
correspondence.


                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF ADMINISTRATIVE AND
CLERICAL COSTS AT DARTMOUTH
  COLLEGE FOR FISCAL YEARS
     2009 THROUGH 2010




                       Daniel R. Levinson
                        Inspector General

                          August 2011
                         A-01-11-01500
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                              INTRODUCTION

BACKGROUND

Allowable Costs for Federal Grants to Colleges and Universities

Colleges and universities that receive Federal grants and contracts must ensure that all costs
charged to these agreements are allowable, pursuant to 2 CFR pt. 220, Appendix A. 1 An
allowable cost must be reasonable, allocable, consistently treated, and conform to any limitations
or exclusions established in 2 CFR pt. 220, Appendix A. In accordance with 2 CFR pt. 220, the
cost of a sponsored agreement includes the allowable direct costs of the project plus the allocable
portion of the allowable facilities and administrative (F&A) costs of the institution. F&A costs
are indirect costs that are incurred for common or joint objectives and, therefore, cannot be
identified readily and specifically with a particular sponsored project, an instructional activity, or
other institutional activity.

With respect to administrative and clerical costs, 2 CFR pt. 220 and related Cost Accounting
Standards state that colleges and universities should generally treat these expenses as F&A costs
and thus recover the applicable portion of those expenses through negotiated F&A rates.
However, Federal regulations recognize that the direct charging of these expenses may be
appropriate in “unlike circumstances” or for certain “major projects.”

Dartmouth College

Dartmouth College (the College) is a private institution located in Hanover, New Hampshire.
During fiscal years 2009 and 2010, the College charged a total of $17,409,588 to Department of
Health and Human Services (HHS) grants and contracts for clerical and administrative salaries
and other administrative (nonsalary) costs normally charged indirectly. These charges consisted
of administrative wages totaling $15,577,141 and other administrative costs totaling $1,832,447.
The nonsalary costs charged directly consisted of office supplies, postage, books, and other
supplies.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the College charged administrative costs (i.e.,
administrative and clerical salaries and other nonsalary administrative costs) in accordance with
2 CFR pt. 220, Appendix A.

Scope

Our review covered the period July 2008 through June 2010. We limited our review of internal
controls to the process that the University used to claim clerical and administrative costs as direct
costs for reimbursement.
1
    This regulation was formerly known as Office of Management and Budget Circular A-21.

                                                        1
We performed our fieldwork at the College’s Office of Sponsored Projects in Hanover, New
Hampshire.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal regulations, the National Institutes of Health Grants Policy
       Statement, grant and contract award terms and conditions, grant application documents,
       and the University’s Cost Accounting Standards Disclosure Statement;

   •   reviewed the College’s chart of accounts and its policies and procedures on
       administrative and clerical costs and other costs normally charged as indirect costs;

   •   obtained and reviewed job titles and job descriptions for employees charged to the
       administrative and clerical account codes;

   •   reviewed the College’s grant application budgets, contract proposals, and related
       justifications for charging costs as direct that are normally charged as indirect; and

   •   reviewed 197 administrative or clerical salary transactions and other administrative
       (nonsalary) cost transactions for the audit period valued at approximately $933,324.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF REVIEW

The College charged administrative costs (i.e., administrative and clerical salaries and other
nonsalary administrative costs) in accordance with 2 CFR pt. 220, Appendix A. Specifically, the
College complied with Federal regulations for 197 administrative cost transactions that it had
charged directly to HHS during the audit period. These transactions were allowable as direct
costs because they were charged to a major project, had unlike circumstances, or were directly
related to or necessary to achieve the objectives or goals of the HHS grants or contracts.
Accordingly, this report contains no recommendations.




                                                 2
